                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM




         We received an allegation that the subject,' an NSF employee, fraudulently misrepresented
                                                                                                   I
         personal time and attendance. As part of our investigation, we interviewed the subject's 1
                                                                                                  !I we
         timekeeper2 and reviewed the subject's timekeeper's timesheets and related emails. Further,
         reviewed the email boxes for the subject and the subject's supervisor.3 We interviewed    1
         appropriate Integrated Time and Attendance System (ITAS) personnel to fully understand the
         system.                                                                                   1
                                                                                                    /I
         The emails reviewed, in several instances, supported the subject's log in and log out times! We
                                                                                                    I)
         found nothing that suggested any collusion between the subject and the subject's supervispr.
         Given the way ITAS worked and the weaknesses observed with the system, the way the Division
         handled time and attendance matters, and the email information that provided evidence I
         supporting the subject for some of the questioned times, we found insufficient evidence t o pursue
         this matter.




NSF OIG Form 2 (11/02)
